                 OFFICE OF INSPECTOR GENERAL


                                                         Catalyst for Improving the Environment



 Audit Report




               Idaho Superfund Credit Claim
               Under EPA Support Agency
               Cooperative Agreement No. V990431-01

               Report No. 2004-4-00016


               June 2, 2004




This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The report represents the opinion of the OIG,
and findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.
Report Contributors:	             Keith Reichard
                                  Richard Valliere
                                  Jan Lister




Abbreviations

Agreement       Support Agency Cooperative Agreement No. V990431-01

CFR             Code of Federal Regulations

EPA             Environmental Protection Agency

OIG             Office of Inspector General

OMB             Office of Management and Budget

State           State of Idaho
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                           June 2, 2004

MEMORANDUM

SUBJECT:       Report No. 2004-4-00016
               Idaho Superfund Credit Claim Under EPA Support Agency
               Cooperative Agreement No. V990431-01

               /s/ Michael A. Rickey
FROM:          Michael A. Rickey
               Director, Assistance Agreement Audits

TO:            John Iani
               Regional Administrator

As requested, we have examined the outlays reported by the State of Idaho under its support
agency cooperative agreement No. V990431-01 with the Environmental Protection Agency
(EPA). The cooperative agreement was authorized under section 104 of the Comprehensive
Environmental Response, Compensation and Liability Act (Superfund). This cooperative
agreement provided the administrative mechanism for recognizing the State’s contribution to
cost sharing requirements for the Federally funded remedial actions at the Bunker Hill Superfund
site. The outlays reported represented the State’s cost sharing contribution at the Bunker Hill
Superfund site for the period April 24, 1995, through April 30, 2000.

We have questioned $649,362 of unallowable reported outlays. The questioned outlays consist
of: (1) unallowable costs incurred before the award of the cooperative agreement;
(2) unsupported payroll costs; (3) unallowable pre-remedial action costs; and (4) duplicate costs.

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. The report represents the opinion of
the OIG, and findings contained in this report do not necessarily represent the final EPA position.
The OIG has no objection to the release of this report to any member of the public upon request.

On March 26, 2004, we issued a draft report to the State for comment, and on May 6, 2004,
comments were provided. The State did not agree with the report findings.

Action Required

In accordance with EPA Manual 2750, the action official is required to provide this office with a
proposed management decision specifying the Agency’s position on all findings and
recommendations in this report. The draft management decision is due within 120 days of the
date of this transmittal memorandum.

If you have questions concerning this report, please contact Keith Reichard, Assignment
Manager, at (312) 886-3045.

Attachment
                                   Table of Contents

Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              1


Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      3


Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    5


Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         9




 Schedules
         Schedule of Pre-Support Agency Cooperative Agreement Costs

         Elizabeth Park (Project Number SVELIZ01) . . . . . . . . . . . . . . . . . . . . . . . .                          11 


         Schedule of Pre-Support Agency Cooperative Agreement Costs

         Nine Mile Creek (Project Number SV19ML01) . . . . . . . . . . . . . . . . . . . . . . . 13 


         Schedule of Pre-Remedial Action Costs

         Canyon Creek (Project Number SV2CNY08) . . . . . . . . . . . . . . . . . . . . . . . . 15 




 Appendices
         A     Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


         B     State’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


         C     Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 





                                                              i
                       Independent Auditor’s Report
We have examined the total outlay reported by the State of Idaho (State) under the
Environmental Protection Agency (EPA) support agency cooperative agreement (agreement), as
shown below:

                                  Financial Status Report
                                                       Cumulative
    Cooperative          Date           Period        Total Outlays      Federal         State
   Agreement No.       Submitted        Ending          Reported          Share          Share

     V990431-01          3/5/03         4/30/00        $7,936,605           $0         $7,936,605


The State certified that the outlays reported on the Financial Status Report, Standard Form 269A,
were correct and for the purposes set forth in the agreement. The preparation and certification of
the claim is the responsibility of the State. Our responsibility is to express an opinion on the
reported outlays based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We examined, on a test basis, evidence
supporting the reported outlays, and performed such other procedures as we considered necessary
in the circumstances (see Appendix A for details). We believe that our examination provides a
reasonable basis for our opinion.

We limited our review to the State’s outlays reported on the Financial Status Report dated
March 5, 2003. The outlays reported represents the State’s 5-year credit claim as required by the
agreement. We did not examine the total cost of remedial actions from which the State derived
its 10-percent share.

We have questioned $649,362 of unallowable reported outlays. The questioned outlays consist
of: (1) unallowable costs incurred before the award of the cooperative agreement; (2)
unsupported payroll costs; (3) unallowable pre-remedial action costs; and (4) duplicate costs.

In our opinion, because of the effects of the matters discussed in the preceding paragraph, the
outlays reported on the Financial Status Report do not present fairly, in all material respects, the
allowable outlays incurred in accordance with the criteria set forth in the agreement. As a result,
we have questioned $649,362 of the $7,936,605 in outlays reported (see Results of Audit
section).
                                                      Keith Reichard
                                                      Keith Reichard
                                                      Assignment Manager
                                                      Field Work End: March 18, 2004


                                                  1
2

                                      Background
EPA awarded the support agency cooperative agreement to the State on May 3, 1995. The
following table provides some basic information about the authorized project period and the
funds awarded under the agreement covered by this audit.

            Cooperative           Total             State              Project
           Agreement No.          Costs             Share              Period

            V990431-01        $115,000,000      $11,500,000     04/24/1995 - 04/30/2000



The agreement was authorized under section 104 of the Comprehensive Environmental
Response, Compensation and Liability Act (Superfund). This agreement provides the
administrative mechanism for recognizing the State’s contribution to cost sharing requirements
for Federally funded remedial actions at the Bunker Hill Superfund site. The cost of remedial
action is anticipated to be $115,000,000, of which the State’s share is 10 percent. Beginning
5 years from the date of the cooperative agreement, and each year thereafter, the State was
required to submit documentation of its accumulated expenditures/credits/services to EPA for
evaluation. The purpose of this reporting was to ensure the State is accumulating sufficient
expenditures/credits/services to achieve its cost share.

To assist the reader in obtaining an understanding of the report, key terms are defined below:


       Reported Outlays:	             Program expenses or disbursements claimed by the State
                                      on the Financial Status Report (Standard Form 269A).

       Questioned Outlays:	           Outlays that are: (1) contrary to a provision of a law,
                                      regulation, agreement, or other documents governing the
                                      expenditure of funds; (2) not supported by adequate
                                      documentation; or (3) not approved by a responsible agency
                                      official.




                                                3
4

                                        Results of Audit
We have questioned unallowable outlays of $649,362 detailed as follows:

                                                        Reported        Questioned
                       Organization*                     Outlays         Outlays             Note
           Silver Valley Natural Resources Trust        $6,356,811         $596,005            1
           Bureau of Disaster Services                      $852,473               $0
           Division of Environmental Quality                $513,763        $53,357            2
           Panhandle Health District                        $213,558               $0
                 Totals                                 $7,936,605         $649,362

           * For reporting purposes, these four State organizations will be jointly referred to
             as the State.


Note 1:	 We have questioned unallowable outlays of $596,005. The questioned outlays consist
         of: (1) unallowable costs incurred before the award of the cooperative agreement;
         (2) unsupported payroll costs; (3) unallowable pre-remedial action costs; and
         (4) duplicate costs. The questioned costs are detailed as follows:

                                                                    Questioned
                                       Description                   Outlays            Note
                       Unallowable pre-award costs                     $366,649          a
                       Unsupported payroll costs                       $116,490          b
                       Unallowable pre-remedial action costs             $29,933         c
                       Duplicate costs                                   $82,933         d
                              Totals                                   $596,005


         a. 	 The State claimed $366,649 incurred after the Bunker Hill Superfund site was
              listed on the National Priority List, but before the State’s cooperative agreement
              was awarded on May 3, 1995. The provisions of Title 40, Code of Federal
              Regulations (CFR) 35.6285(c)(2)(E)(ii) provides that expenditures incurred after a
              site is listed on the National Priority List are unallowable if the costs are incurred
              prior to the award of a cooperative agreement. Accordingly, we have questioned
              $186,990 for Elizabeth Park and $179,659 for Nine Mile Creek; schedules on the
              questioned costs are on pages 11 and 13, respectively.

               State’s Comments:

               The State believes the costs associated with Elizabeth Park and Nine Mile Creek
               should be counted as match costs. The State entered into a State Superfund
               Contract and signed the support agency cooperative agreement that specifically


                                                        5
          listed the Elizabeth Park and Nine Mile Creek projects as match eligible. The
          Nine Mile Creek project was approved by an Action Memo, signed by EPA and
          others, dated July 13, 1994, well ahead of the April 1995 support agency
          cooperative agreement.

          Auditor’s Response:

          The questioned costs were incurred after the Bunker Hill Superfund site was listed
          on the National Priority List, and prior to the award of the support agency
          cooperative agreement, and thus are unallowable in accordance with 40 CFR
          35.6285(c)(2)(E)(ii).

      b. 	 The State was unable to provide source documentation to support payroll costs
           claimed as required by Office of Management and Budget (OMB) Circular A-87,
           Attachment B, Section 11(h), and 40 CFR 31.21(b)(6). We were provided with a
           summary of the employees’ labor costs. However, the State was unable to
           provide supporting documentation such as: (1) bi-weekly time sheets, and
           (2) salary or labor rates paid. Also, the State could not support the fringe benefit
           costs claimed. In the absence of supporting documentation, we have questioned
           the total amount claimed of $116,490.

          State’s Comments:

          The State agrees that when the documentation was requested it was unavailable;
          however, the State maintains that the required documentation did exist, and
          through an unfortunate misunderstanding, most of the documentation was
          destroyed. The State was able to provide source documentation for approximately
          10 percent of the period reviewed. In addition the State provided electronic
          copies of actual payroll “runs” as well as microfiche copies of the payments. The
          State requirements for documenting costs were present during the period reviewed
          and those policies still exit.

          Auditor’s Response:

          The State did not furnish us with sufficient documentation either during our field
          work or in response to the draft report to support the claimed payroll costs.
          Accordingly, the costs remain questioned.

c.	       According to the State, it inadvertently claimed unallowable pre-remedial action
          costs of $29,933. These costs were incurred after the award of the cooperative
          agreement on May 3, 1995, and before the award of the Canyon Creek
          construction contract. The cooperative agreement provided that only remedial
          action costs could be used as a credit for the State’s cost share requirement. EPA
          has defined remedial action to include the actual construction or implementation



                                            6
              phase of a Superfund site cleanup following remedial design. The State
              considered all costs incurred before the construction contract award date to be
              pre-remedial action costs and not allowable as a State credit. The questioned
              costs are shown in the schedule on pages 15 and 16.

              State’s Comments:

              The State acknowledges that some of the $82,933 (see schedule on pages 15 and
              16) identified for the Canyon Creek project were pre-remedial costs. However,
              the State believes that the costs of $53,000 for the power pole removal should be
              counted as match costs.

              Auditor’s Response:

              We concur that the costs to remove the power pole are allowable remedial action
              costs, and have reinstated the $53,000 amount. However, $29,933
              ($82,933 - $53,000) in pre-remedial costs remain questioned.

       d. 	   The State inadvertently claimed pre-remedial costs of $82,933 for the Canyon
              Creek project twice. The questioned costs are shown in the schedule on pages 15
              and 16.

              State’s Comments:

              The State did not comment.

Note 2:	      We have questioned $53,357 in excess costs reported for the institutional controls
              program. Institutional controls were remedial actions at sites to minimize the
              potential for human exposure to contamination and/or protect the integrity of a
              remedy by limiting land or resource use. In this case, the institution controls
              consisted of installing top soil in residential and nonresidential sites. In reviewing
              the State’s supporting documentation, we found that the State’s calculations
              contained mathematical errors, and some of the measurements were based on
              estimated quantities rather than actual quantities. Accordingly, the State
              re-measured the sites, and recalculated the costs for the institutional controls.
              Based on re-measuring the sites, the State determined that the reported costs were
              overstated by $53,357.

              State’s Comments:

              The State did not comment.




                                                7
Other Matter

The State and a potentially responsible party entered into an agreement where the potentially
responsible party would pay 14.8 percent of all costs incurred in accomplishing the restoration of
the natural resources in certain portions of the South Fork of the Coeur d’Alene River. The
State included in the reported outlays costs of $44,080 incurred by this potentially responsible
party. EPA’s Region 10 originally determined these costs to be ineligible. However, Region 10
informed us that the initial determination of ineligibility will be overturned and these costs will
be deemed allowable. Accordingly, Region 10 officials requested that we examine these costs to
determining whether the costs were adequately supported. The $44,080 reported on the March 5,
2003, financial status report plus an additional $12,695 was supported with appropriate
documentation. The additional $12,695 was included in earlier financial status reports; however,
the State inadvertently omitted these costs in preparing the financial status report submitted on
March 5, 2003. The State informed us that it will seek credit for these costs.

State’s Comments:

The State intends to amend its claim and seek credit for the additional $12,695.

Auditor’s Response:

See recommendation number 3.




                                                 8
                               Recommendations

We recommend that EPA Region 10:

1.	    Disallow the questioned costs of $649,362.

2.	    Advise the State to maintain original source documentation to support future credit
       claims.


Should EPA overturn its original decision and allow the $44,080 amount discussed in the “Other
Matter” section of this report, we recommend that EPA Region 10:

3.	    Consider the additional incurred costs of $12,695 as match eligible costs.




                                                9
10

                               Schedules
Schedule of Pre-Support Cooperative Agreement Costs

     Elizabeth Park (Project Number SVELIZ01)


                                Invoice
                  Vendor          Date      Invoice   Amount

        MFG                    08/08/1994   063094        $43

        MFG                    08/31/1994   073194       $134

        MFG                    08/31/1994    83194       $174

        MFG                    08/31/1994    83194      $3,850

        Pintlar                09/08/1994    1117        $138

        Pintlar                10/03/1994    1126       $3,819

        Progressive Printing   10/04/1994    10635       $162

        Marsh Irwin            10/31/1994   102094       $870

        Osburn Drug            10/31/1994    77856        $16

        Osburn Drug            10/31/1994    77110        $45

        Osburn Drug            10/31/1994    77110        $26

        Zanetti Brothers       11/16/1994    12348     $32,828

        Building Maintenance   12/12/1994   2066831      $139

        Ed Pommerening         12/12/1994    9994       $2,463

        MFG                    12/12/1994   093094      $5,443

        MFG                    12/12/1994   103194      $8,139

        Osburn Drug            12/12/1994    73105        $29
        Swanson Distributing   12/12/1994   352688       $125
        MFG                    12/23/1994   113094      $3,573

        Zanetti Brothers       12/23/1994    12355    $103,649

        G.T. Hall (trees)      01/13/1995   102494      $2,583

        Jack Matranga          02/02/1995      3        $1,313

        MFG                    02/02/1995   123194      $3,362

        Jack Matranga          03/03/1995      4         $240

        Zanetti Brothers       03/29/1995    12356     $13,045
        MFG                    04/03/1995   022895       $782
                     Total                            $186,990




                                      11
12

Schedule of Pre-Support Cooperative Agreement Costs

    Nine Mile Creek (Project Number SV19ML01)


                                Invoice
              Vendor              Date      Invoice    Amount

        Jack Matranga          10/31/1994      1        $6,084

        Osburn Drug            10/31/1994    78260         $45

        Osburn Drug            10/31/1994    75031         $12

        Panhandle Health       10/31/1994   svta-jul      $112

        Panhandle Health       10/31/1994    5160         $130

        Panhandle Health       10/31/1994   101294        $500

        Pintlar                10/31/1994    1134         $110

        Progressive Printing   10/31/1994    10893         $48

        RDS                    10/31/1994      1       $10,481

        Swanson                10/31/1994   351919        $877

        ERI                    12/12/1994    1-24       $6,211

        ERI                    12/12/1994    2-24      $19,691

        Jack Matranga          12/12/1994      2       $13,220

        MFG                    12/12/1994   093094        $360

        MFG                    12/12/1994   093094      $6,816

        MFG                    12/12/1994   103194      $3,010

        MFG                    12/12/1994   103194        $732

        MFG                    12/23/1994   113094        $436

        MFG                    12/23/1994   113094      $6,412

        Panhandle Health       12/23/1994   120794      $2,132
        RDS                    12/23/1994     81       $14,299

        Aerial Mapping         01/11/1995    2734       $4,975

        Building               02/2/1995    2070851        $14

        ERI                    02/2/1995     3-24      $18,049

        Jack Matranga          02/2/1995       3        $3,556

        Kinkos                 02/2/1995    0470050       $508

        MFG                    02/2/1995    123194        $123

        MFG                    02/2/1995    123194         $81

        MFG                    02/2/1995    123194      $9,227

        Panhandle Health       02/2/1995     1194       $5,338



                                      13
Schedule of Pre-Support Cooperative Agreement Costs

    Nine Mile Creek (Project Number SV19ML01)

                           (Continued)



                            Invoice
              Vendor          Date      Invoice   Amount

        Pintlar            02/2/1995     1151        $250

        MFG                03/2/1995    013195       $210

        MFG                03/2/1995    013195     $22,979

        Jack Matranga      03/3/1995      4          $867

        Panhandle Health   03/3/1995     1294       $2,196

        ERI                04/03/1995    4-24      $12,497

        Jack Matranga      04/03/1995     5          $140

        Jack Matranga      04/03/1995     5          $424

        MFG                04/03/1995   022895      $6,456

        Osburn Drug        04/03/1995   65335         $13

        Osburn Drug        04/03/1995   10045         $30

        Osburn Drug        04/03/1995   65335          $8
              Total                               $179,659




                                 14
 Schedule of Pre-Remedial Action Costs 

Canyon Creek (Project Number SV2CNY08)


                           Invoice
         Vendor              Date      Invoice   Amount

   All Star Safe & Lock   05/22/1997   051497        $30

   Building               06/23/1997   2139151      $138

   Coeur D Alene          05/22/1997     291         $79

   Eric Lassfolk          06/23/1997   061397        $35

   G T E Northwest        02/04/1997   011397A       $79

   G T E Northwest        02/04/1997   011397B       $15

   G T E Northwest        03/04/1997   020197        $36

   G T E Northwest        03/04/1997   020197         $5

   G T E Northwest        03/14/1997   021397-       $79

   G T E Northwest        03/31/1997   030197        $21

   G T E Northwest        04/23/1997   040197        $27

   G T E Northwest        06/11/1997   051397        $94

   G T E Northwest        06/11/1997   051397        $15

   Gascard Inc            05/08/1997   050197        $98

   Gascard Inc            06/11/1997   060197        $23

   Golder Associates      03/31/1997   0000011     $2,726

   Golder Associates      06/11/1997    11445      $5,221

   Golder Associates      06/11/1997    11563      $6,847

   Golder Associates      06/28/1997   0000011     $5,857

   Jack Matranga          03/17/1997     29        $2,297
   Jack Matranga          05/08/1997     30        $3,398

   Loren W Cook           02/04/1997    16286         $5

   Martha Calabretta      12/19/1996   120496        $37

   Minde L Beehner        04/23/1997   040197         $5

   Netlink Inc            05/22/1997   016982       $114

   Olsten Staffing        03/04/1997   000102       $228

   Olsten Staffing        04/23/1997   0001223      $285

   Olsten Staffing        04/23/1997   0001223      $285

   Olsten Staffing        04/23/1997   0001140      $317

   Olsten Staffing        06/11/1997    1423        $107

   Osburn Drug            12/19/1996   127969        $20


                                 15
 Schedule of Pre-Remedial Action Costs
Canyon Creek (Project Number SV2CNY08)
                         (Continued)


                         Invoice
        Vendor             Date       Invoice    Amount

  Osburn Drug           04/23/1997    158799           $30

  Osburn Drug           04/23/1997    131597          $120

  Osburn Drug           04/23/1997    131718            $2

  Osburn Drug           04/23/1997    129584          $435

  Osburn Drug           05/22/1997    159394           $43

  Osburn Drug           05/22/1997    159394           $18

  Osburn Drug           05/22/1997    159395           $62
  Osburn Drug           05/22/1997    163687           $20

  Osburn Drug           06/11/1997    158893            $7

  Osburn Drug           06/11/1997    161103           $28

  Osburn Drug           06/28/1997    160831            $9

  Panhandle Health      03/31/1997    030197           $11

  Rick Smith            12/19/1996     8535            $30

  Sherry Lynn Krulitz   06/23/1997    061397           $35

  Shoshone County       12/19/1996    120496           $12

  Shoshone County       05/22/1997    050597            $2

  Shoshone County       05/22/1997    69798            $79

  Shoshone County       05/22/1997    21624           $107

  SVL Analytical Inc    12/6/1996     62814           $360
       Subtotal                                    $29,933

  Washington Water      6/20/1997    BURKEP       $53,000*
        Total                                      $82,933



    *These costs have been reinstated in note 1(c); however,
    it remains as a duplicate costs claimed under note 1(d).




                               16
                                                                                   Appendix A

                          Scope and Methodology

We performed our examination in accordance with the generally accepted government auditing
standards, and the attestation standards established for the United States by the American
Institute of Certified Public Accountants. We also followed the guidelines and procedures
established in the OIG Project Management Handbook dated November 5, 2002.

We conducted this examination to express an opinion on the reported outlays. To meet these
objectives, we asked the following questions:

       1.	 Is the State’s financial management system adequate to account for grant funds in
           accordance 40 CFR 31.20 and 40 CFR Part 35, Subpart O, paragraphs 35.6270
           through 35.6290?

       2.	 Does the State maintain an adequate labor distribution system that conforms to
           requirements of OMB Circular A-87?

       3.	 Does the State’s procurement procedures for contractual services comply with
           40 CFR 31.36 and 40 CFR Part 35, Subpart O, paragraphs 35.6550 through 35.6610?

       4.	 Is the State’s reported cost share allowable under the agreement adequately supported
           and allowable as a credit or match under the terms and conditions of the agreement,
           OMB Circular A-87, and applicable regulations?

In conducting our examination, we reviewed the project files and obtained the necessary
cooperative agreement information for our examination. We interviewed EPA’s Region 10
project staff to determine whether any concerns needed to be addressed during our examination.
We also interviewed State personnel to obtain an understanding of the accounting system and the
applicable internal controls as they relate to the reported costs. We obtained and reviewed the
single audit reports, General Accounting Office reports, and other EPA Inspector General reports
issued related to this assignment, to determine whether there were any reportable conditions and
recommendations addressed in those reports.

We reviewed management’s internal controls and procedures specifically related to our
objectives. Our examination included reviewing the State’s compliance with OMB Circular
A-87; 40 CFR Part 31, and Part 35, Subpart O; and the terms and conditions of the cooperative
agreement. We also examined the reported costs on a test basis to determine whether the costs
were adequately supported and eligible for reimbursement under the terms and conditions of the
cooperative agreement and Federal regulations. We conducted our field work from July 7, 2003,
to March 18, 2004.



                                               17
After gaining an understanding of the State’s financial management system, we reconciled the
claimed costs to the State’s accounting records. Based on our judgment we performed an
in-depth review of costs reported by the four State entities. We chose to perform a thorough
review of construction costs from all State projects, which represents approximately 80 percent
of the total costs. This specific cost element was chosen because of the risk associated with the
costs and the high dollar valve. For all other costs, we tested transactions on a judgmental basis.




                                                18
                                                                             Appendix B


                              State’s Response
Richard Valliere
EPA-OIG
1 Congress Street
Boston, MA 02114-2023

RE: Idaho Superfund Credit Claim under EPA Support Agency cooperative
Agreement No. V990431-01

Dear Mr. Valliere:

Thank you for providing the March 26, 2004 draft audit report for the above referenced
cooperative agreement for our review. Our comments on the report are listed below
according to the annotation in your letter.

a. The State of Idaho entered into a State Superfund Contract and signed a Support
Agency Cooperative Agreement (SACA) that specifically listed the Elizabeth Park and
Nine Mile Creek projects as being match eligible. In the third paragraph on page 4 of
the SACA it states that, “State expenditures which qualify as State credit include but are
not limited to those for response actions at Elizabeth Park and Nine Mile Creek,
including State expenditures for oversight of these actions.” We believe the costs
associated with these projects ($186,900 for Elizabeth Park and $179,659 for Nine Mile
Creek) should be counted as match based on our agreement with Region 10 EPA.
Additionally, these projects meet the intent of Section II.B. of the SACA by improving
water quality in the South Fork of the Coeur d’Alene River. Furthermore, the Nine Mile
project was approved by an Action Memo, signed by EPA and others, dated July 13,
1994, well ahead of the April 1995 SACA.

b. The Draft Audit Report has questioned payroll costs in the amount of $116,490
because the State could not provide documentation to support the costs. The State
agrees that when the documentation was requested, it was unavailable, however, the
State maintains that the required documentation did exist, and through an unfortunate
misunderstanding, most of the documents were destroyed. The State was able to
provide source documents for approximately 10% of the period be reviewed. In addition
the State provided electronic copies of actual payroll “runs” as well as microfiche copies
of the payments. All fringe benefits and actual costs were produced and made
available. The State’s requirements for documenting costs were present during the
period reviewed and those policies still exist. Those requirements, as presented, fully
comply with OMB Circular A-87 requirements. Although the actual signed timesheets
could not be provided, the State believes that there is adequate information available to
support the questioned costs.



                                            19
c. The State of Idaho acknowledges that some of the costs identified for the Canyon
Creek project were pre-remedial. However, we firmly believe the June 20, 1997
$53,000 costs associated with the power pole removal by Washington Water and
Power should be counted as match credit. Moving a power pole was clearly part of the
implementation of the project and not part of remedial design. The appropriate way to
view this project is that there were two construction contracts associated with the work.
There was the Canyon Creek project contract, and there was the pole removal contract
that was a necessary part of the remedial project implementation.

As referenced under "Other Matters" (page 6 of the draft report), it is the intention of the
State to file with Region 10 an adjustment increasing the PRP (Hecla in-kind) by the
audited increase of $12,695 for a total of $56,775.

In regard to the recommendations of the report, the State of Idaho has continued to
work with EPA Region 10 on managing project costs. We have signed subsequent
State Superfund Contracts and continue to accrue match through direct state
expenditures and in-kind projects. We expect that the next credit report scheduled for
April 30, 2005 will continue to show the State of Idaho’s progress toward meeting the
ten percent match obligation for this site. An issue that we would like to have clarified
by EPA Region 10 over the course of this coming year is the value of the federal
expenses so that we can know the final match amount needed for the site.

Sincerely,



Orville Green, Administrator
Waste Management and Remediation Division

Enclosure




                                             20
                                                                              Appendix C


                                      Distribution

Region 10

      Regional Administrator (Action Official)

       (responsible for report distribution to recipient.)

      Audit Coordinator


Headquarters

      Director, Grants Administration Division (3903R)

      Agency Followup Official (the CFO) (2710A)

      Agency Audit Followup Coordinator (2724A)

      Associate Administrator for Congressional and Intergovernmental Relations (1301A)

      Associate Administrator for Public Affairs (1101A) 

      Comptroller (2731A)

      Depute Chief Financial Officer (2710A)


Office of Inspector General

      Inspector General (2410)




                                                21
